kmn o 11
A

Case: 17-1508

Document: 40-1

Filed: 08/19/2020

Page: 1

(1 of 3)

No. 17-1508
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHNNY TIPPINS
Plaintiff-Appellant,
v.

PATRICIA CARUSO; BARBARA MEAGHER;
JOHN DOES; JANE DOES; GEORGE KUBIN;
JAMES C. KELLY; BLAINE LAFLER, Warden,
Defendants-Appelle'es.

FILED

)
)
)
)
)
)
)
)
)
)
)

Aug 19,2020
DEBORAH S. HUNT, Clerk
ORDER

Before: COLE, Circuit Judge.
Johnny Tippins, a Michigan prisoner proceeding pro se, has filed a second motion to recall
the mandate in his appeal from the district court’s dismissal of his civil rights complaint filed
pursuant to 42 U.S.C. § 1983.
Tippins filed a complaint against the defendants asserting that his Eighth Amendment
rights were violated when he was injured as a result of drinking contaminated water while he was
incarcerated at the St. Louis Correctional Facility from 2004 to 2007. The district court dismissed
the complaint as untimely and denied Tippins’s motions to amend his complaint as futile. Tippins
appealed, and this court affirmed the district court’s judgment dismissing the complaint as
untimely. Tippins sought panel rehearing, which we denied. He then filed a petition for writ of
certiorari before the United States Supreme Court, which was denied. After that, he sought to
recall the mandate this court had issued dismissing his complaint. We denied his motion. Tippins
now moves this court for a second time to recall the mandate.
“Although courts of appeals have the inherent authority to recall a mandate, such power
should only be exercised in extraordinary circumstances because of the profound interests in

Case: 17-1508

Document: 40-1

Filed: 08/19/2020

Page: 2

No. 17-1508
-2repose attached to a court of appeals mandate.” United States v. Saikaly, 424 F.3d 514, 517 (6th
Cir. 2005) (order). “The sparing use of the power demonstrates it is one of last resort, to be held
in reserve against grave, unforeseen contingencies.” Calderon v. Thompson, 523 U.S. 538, 550
(1998). While Tippins argues that he seeks for this court to correct a clerical mistake or clarify an
outstanding mandate because the district court should have determined that he was entitled to
equitable tolling pursuant to Michigan Compiled Laws § 600.5855, he is merely attempting to
reargue this court’s determination that his complaint was untimely, which is not a basis for
recalling the mandate. Accordingly, Tippins has failed to demonstrate exceptional circumstances
warranting recalling the mandate.
Based on the foregoing, the court DENIES Tippins’s second motion to recall the mandate.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(2 of 3)

Case: 17-1508

Document: 40-2

Filed: 08/19/2020

Page: 1

NITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: August 19, 2020

Mr. James Erwin Long
Michigan Department of Attorney General
P.O. Box 30736
Lansing, MI 48909
Ms. Mary Massaron
Plunkett Cooney
38505 Woodward Avenue
Suite 100
Bloomfield Hills, MI 48304
Mr. Johnny Tippins
Oaks Correctional Facility
1500 Caberfae Highway
Manistee, MI 49660
Re: Case No. 17-1508, Johnny Tippins v. Patricia Caruso, et al
Originating Case No. : 2:14-cv-10956
Dear Mr. Tippiss and Counsel:
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Patricia J. Elder
Senior Case Manager
cc: Mr. David J. Weaver
Enclosure

(3 of 3)

Case: 17-1508

Document: 47-2

Filed: 10/01/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: October 01,2020

Mr. James Erwin Long
Office of the Attorney General
of Michigan
P.O. Box 30736
Lansing, MI 48909
Ms. Mary Massaron
Plunkett Cooney
38505 Woodward Avenue
Suite 100
Bloomfield Hills, MI 48304
Mr. Johnny Tippins
Oaks Correctional Facility
1500 Caberfae Highway
Manistee, MI 49660
Re: Case No. 17-1508, Johnny Tippins v. Patricia Caruso, et al
Originating Case No. 2:14-cv-10956
Dear Mr. Tippins and Counsel,
The Court issued the enclosed Order today in this case.
Sincerely yours,
sra^lclal. Elder
Senior Case Manager
cc: Mr. David J. Weaver
Enclosure

No. 17-1508
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHNNY TIPPINS,
Plaintiff-Appellant,
v.
PATRICIA CARUSO; BARBARA MEAGHER;
JOHN DOES; JANE DOES; GEORGE KUBIN;
JAMES C. KELLY; BLAINE LAFLER, Warden,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)

FILED
Oct 01,2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COLE, Chief Judge.

Johnny Tippins, a Michigan prisoner proceeding pro se, has filed a third motion to recall
the mandate in his appeal from the district court’s dismissal of his civil rights complaint filed
pursuant to 42 U.S.C. § 1983.
Tippins filed a complaint asserting that his Eighth Amendment rights were violated when
he was injured as a result of drinking contaminated water while he was incarcerated at the St. Louis
Correctional Facility from 2004 to 2007. The district court dismissed the complaint as untimely
and denied Tippins’s motions to amend his complaint as futile. Tippins appealed, and this court
affirmed the district court’s judgment dismissing the complaint as untimely. Tippins now moves
this court for a third time to recall the mandate.
“Although courts of appeals have the inherent authority to recall a mandate, such power
should only be exercised in extraordinary circumstances because of the profound interests in
repose attached to a court of appeals mandate.” United States v. Saikaly, 424 F.3d 514, 517 (6th
Cir. 2005) (order). “The sparing use of the power demonstrates it is one of last resort, to be held

No. 17-1508
-2-

in reserve against grave, unforeseen contingencies.” Calderon v. Thompson, 523 U.S. 538, 550
(1998). Although Tippins argues that he seeks for this court to correct a clerical mistake or clarify
its mandate, he is merely attempting to reargue this court’s determination that his complaint was
untimely, which is not a basis for recalling the mandate. Accordingly, Tippins has failed to
demonstrate exceptional circumstances warranting recalling the mandate.
We also now enjoin Tippins from future filings in this case. “There is nothing unusual
about imposing prefiling restrictions in matters with a history of repetitive or vexatious litigation.”
Feathers v. Chevron U.S.A., Inc., 141 F.3d 264, 269 (6th Cir. 1998). Tippins has displayed a
pattern of repetitive, frivolous, and vexatious litigation in this court related to his assertion that he
was injured as a result of drinking contaminated water while he was incarcerated at the St. Louis
Correctional Facility. To date, Tippins has filed a petition for rehearing and three motions to recall
the mandate. And in Case No. 16-2630, which also concerns injuries that Tippins allegedly
sustained as a result of drinking contaminated water at the St. Louis Correctional Facility, we
enjoined Tippins from future filings in that case after he submitted a petition for rehearing and
three motions to recall the mandate. Finally, the district court has enjoined Tippins from future
filings without court permission regarding his alleged injuries from drinking contaminated water.
Tippins v. Caruso, No. 2:14-cv-10956 (E.D. Mich. Feb. 16, 2017).
Based on the foregoing, we DENY Tippins’s motion to recall the mandate, and we
DIRECT the clerk not to accept any further filings in this case.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPewdi%

I

;

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 17-1508
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHNNY TIPPINS,

)
)
)
)
)
)

Plaintiff-Appellant,

.PATRICIA CARUSO; BARBARA MEAGHER;
JOHN DOES; JANE DOES; GEORGE KUBIN;
JAMES C. KELLY; BLAINE LAFLER, Warden,
Defendants-Appellees.

)
)
)
)

FILED
Mar 21,2018
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

ORDER
Before: COLE, Chief Judge; GIBBONS and BUSH, Circuit Judges.

Johnny Tippins, a Michigan prisoner proceeding pro se, appeals the district court’s
dismissal of his civil rights complaint filed pursuant to 42 U.S.C. § 1983. This case has been
referred to a panel of the court that, upon examination, unanimously agrees that oral argument is

[

not needed. See Fed. R. App. P. 34(a).
—- —-^./Pippins filed a complaint against the defendants asserting that his Eighth Amendment

i
,

/-

rights were violated when he was injured as a result of drinking contaminated water while
incarcerated at the St. Louis Correctional Facility, in St. Louis, Michigan, from 2004 to 2007.
The district court dismissed the complaint as untimely and denied Tippins’s motions to amend
his complaint as futile. Tippins now argues that application of the statute of limitations found in
the Comprehensive Environmental Response, Compensation, and Liability Act (“CERCLA”)
makes his complaint timely.

L

A

r
No. 17-1508
-2-

We review de novo a district court’s:dismissal of a complaint on statute of limitations
grounds. Banks v. City of Whitehall, 344 F.3d 550, 553 (6th Cir. 2003). Because § 1983 does
not contain a statute of limitations, federal courts apply the state personal injury statute of
limitations. See, Wilson v. Garcia, 471 U'.S. 261, 280 (1985).

The appropriate statute of

limitations for personal injury actions arising in Michigan and brought under § 1983 is three
years. See Mich. Comp. Laws § 600.5805(10). Although state law governs for the purpose of
determining the appropriate statute of limitations, “federal law governs the question of when that
limitations period begins to run.” McCune v. City of Grand Rapids, 842 F.2d 903, 905 (6th Cir.
1988). “[T]he statute of limitations begins to run when the plaintiff knows or has reason to know
of the injury which is the basis of his action.” Id. While Tippins claims that he did not know of
his injury until 2014, when he discovered that the prison drinking water contained the p-CBSA
contaminant, in his complaint he asserted that he complained to prison officials of stomach pain,
headache, and fever resulting from contaminated water while he was incarcerated at the St. Louis
facility from 2004 to 2007. Because Tippins knew of his injury by 2007 at the latest and did not
file his complaint until 2014, the district court did not err in dismissing the complaint as
untimely.
Although we generally review the denial of a motion to amend a complaint for an abuse
of discretion, when the district court denies the motion to amend as futile we review the decision
de novo. Babcock v. Michigan, 812 F.3d 531, 541 (6th Cir. 2016). An amendment is futile if it
could not withstand a motion to dismiss. SFS Check, LLC v. First Bank of Del., 774 F.3d 351,
355 (6th Cir. 2014). The district court did not err in denying the motions to amend because
Tippins lacked standing to bring an action under CERCLA. “[CERCLA] permits private party
property owners to recover from prior private party property owners certain costs associated with
the cleanup of contamination caused by the prior owners, where the cleanup costs were
‘necessary.’” Reg’l Airport Auth. of Louisville v. LFG, LLC, 460 F.3d 697, 699-700 (6th Cir.
2006). Because Tippins is not seeking costs associated with the cleanup of contamination, he
lacks standing to bring an action under CERCLA. Additionally, even if Tippins had standing to
bring an action under CERCLA, his claims would still be untimely because he knew, or should

1

r

>

No. 17-1508
-3 -

have known, of his injury and its cause by no later than 2007 when he complained to prison
officials of becoming ill from contaminated water. See 42 U.S.C. § 9658(b)(4).

Because

Tippins’s CERCLA claim could not survive a motion to dismiss, the district court did not err in
denying the motions to amend.
Accordingly, we AFFIRM the judgment of the district court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

t\?mm

r

1
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No: 17-1508

Filed: May 8, 2018
JOHNNY TIPPINS
Plaintiff - Appellant
v.
PATRICIA CARUSO; BARBARA MEAGHER; JOHN DOES; JANE DOES; GEORGE
KUBIN; JAMES C. KELLY; BLAINE LAFLER, Warden
Defendants - Appellees
li
!

MANDATE
Pursuant to the court's disposition that was filed 03/21/2018 the mandate for this case hereby
issues today.

COSTS: None

